No.

In the Supreme Court of the United States
HEALTHCARE DISTRIBUTION ALLIANCE,
ASSOCIATION FOR ACCESSIBLE MEDICINES,
and SPECGX LLC,
Petitioners,
v.
LETITIA JAMES and HOWARD A. ZUCKER,
in their respective official capacities as Attorney General and
Commissioner of Health of the State of New York,
Respondents.

CERTIFICATE OF SERVICE

I, Michael B. Kimberly, a member of the Bar of this Court, certify pursuant to
this Court’s order of March 19, 2020, that on this 17th day of May, 2021, I caused one
copy of this petition for certiorari to be served by electronic means on the following:
Caroline Anais Olsen
Steven Wu
New York State Office of the Attorney General
Caroline.Olsen@ag.ny.gov
Steven.Wu@ag.ny.gov
I further certify that all parties required to be served have been served.

_______________________
Michael B. Kimberly

